                                                    NATIONAL RAILROAD PASSENGER CORPORATION
                                                                           10 G Street, NE, Suite 3W-300, Washington DC 20002
                                                                                              tel 202 906.4600 fax 202 906.4564




                                                                                                           0.,.-'
                                                                                                              AM.TRAK




   Date      April 12, 2010                                  From    Ted Alves 'X;,"} C"i"'_ /' --
     To      All OIG Audit Staff                        Department   Office of Inspector General
                                                           Subject   Most Recent Peel' Review
                                                                cc   Bret Coulson
                                                                     Colin Carriere
                                                                     Cal Evans




Message


          In September 2009 the Amtrak OIG received our most recent peel' review results, While
          we received a passing rating it was with deficiencies. A deficiency is one or more
          findings that due to the nature, causes, pattern or pervasiveness could create a situation in
          which the Amtrak OIG would not have reasonable assurance of performing or reporting
          in conformity with professional standards in one or more aspects. Specifically the peel'
          review team found that (1) our quality control system requirements need to be followed
          and all quality control requirements need to be made mandatory for limited scope audits,
          and (2) our system for monitoring continuing professional education (CPE) did not
          ensure that all audit staff obtained the appropriate CPE credits to meet the Government
          Auditing Standards.

          In response to the report, the Amtrak OIG agreed to completely revise the Audit Policy
          Manual as well as revising training policies. These actions were to be completed by
          March 31,2010. As they have not, this memorandum implements changes in our quality
          control, audit processes and training procedures until such time as the revised manual can
          be completed. It is the policy of the Amtrak OIG that our audit work will comply with
          the Government Auditing Standards, 2007 revision.

          Limited Scope Audits

          Effective immediately Section II-23 on Limited Scope Audits and Consulting Projects is
          rescinded. No new limited scope audits may be initiated. There are a number of limited
          scope audits in process including some that are in the report stage. On all of these
Ted Alves
April 12. 2010
Page 2



projects, the responsible senior director should ensure that all quality control
requirements of a full audit are met. No exceptions are permitted. Government Auditing
Standards (1.11) requires that all applicable standards be followed when audits are
represented as following the Government Auditing Standards. We will not permit a
modified statement of compliance with the standards.

Any project that is currently underway that would have been classified as consulting
projects or non-audit services must be formally presented to the acting Assistant IG for
audit prior to any further work being conducted on them. Additionally, each audit office
should submit a list of all consulting projects or non audit services they have performed
in the past 3 years to the acting Deputy IG for audit no later than April 30, 2010.
Negative replies are required.


Quality Control System

The peer review found problems with the reports reviewed including:
   • Inadequate or no independent referencing,
   • Findings lacking the required elements of a finding,
   • Insufficient suppoliing evidence,
   • Lack of fully cross indexed reports, and
   • Failure to cross index substantive changes to the report.

Until the audit policy manual is revised, the following quality control procedures are in
effect for all projects. The following documents should be added to teammate
workpapers for each audit.

    1. a work paper clearly identifying for each repoti finding the condition, cause,
       criteria, effect, and recommendation
    2. a statement of independency and a statement of qualifications for all auditors that
       worked on the project
    3. a completed repoli review checklist
    4. a completed work paper review checklist
    5. a completed independent review checklist
    6. a fully cross-index report for each version submitted to the IG or AIG for Audits
       for signature
    7. a certification by the senior director for all repolis submitted to the IG or AIG for
       Audits for signature that all of the above items were completed and that they
       personally have reviewed these documents and the submitted repmi
red Alves
April 12, 2010
Page 3




ePE Reporting and Tracking

The peer review found that 2 of 12 auditors reviewed did not meet the 2-year ePE
requirements established by the Government Auditing Standards. According to the
standards, failure to meet the ePE requirements would prohibit the auditor from
pat1icipating in audits conducted under the yellow book.

Each auditor should provide to their senior director a listing of all training taken for the 2-
year period ending September 2009 as well as all training taken through February 2010.
This information should be provided by 4/30 to the acting Deputy IG for Audits.
Additionally, for any staff that did not meet the 80 hour requirements by 2/28/10, the
senior director should include a plan of action.


Audit Manual Revisions

We will shol1ly be issuing a plan for completing the revisions to the audit policy manual.
We hope to have staff members pat1icipate in this process. More details will be provided
soon.

Thank you for your cooperation in this most significant matter. If you have any
questions, please call or email Acting AIG for Audits Nick Pinto at ATS 777-4296 or
dominic.pinto@amtrak.com.
